No. 19-675

IN THE

~upreme QCourt of tbe Winiteb ~tate%
BANK OF AMERICA CORP., ET AL.,

Petitioners,
V.

CITY OF MIAMI, FLORIDA,

Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit

CERTIFICATE OF COMPLIANCE
I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.l(h), I certify this 11th day of February, 2020 that the Reply Brief for
Petitioners contains 2,475 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).

Andrew Kim
Goodwin Procter LLP
1900 N Street, N.W.
Washington, D.C. 20036
AndrewKim@goodwinlaw.com
(202) 346-4000

Counsel for Petitioners
February 11, 2020

